                                 011




                                                         Con
                                0, 2




                                                to the         gr
                                            ort
                            r3




                                                                  es
                                         R ep                       s   •
                           be




                         te m
                      Sep            l                                      O
                                  ua
                                                                             f fice
                                nn
                                                                                    o




                                                                                    ft
                       ia




                                                                                      he
                     em




                                                                                        In
                                                                                           sp
     •S




                                                                                              ect
                                                                                                 or
                                                                                                Ge
                     ss
                 ngre




                                                                                                  ner
                                                                                                     al
The Library of Co
  This aerial photograph of Capitol Hill shows several prominent structures including the Library of Congress
  Thomas Jefferson, James Madison, and John Adams buildings (foreground center and left). The image also
  exhibits the proximity of the Library’s three buildings to the U.S. Capitol, the Supreme Court, and the House
  (left), and Senate (right), office buildings. Between the diagonals of Pennsylvania (right) and Maryland
  avenues on the north and south, and the National Mall and Reflecting Pool on the east and west, lies the
  Washington Monument.

  This semiannual report features the architecture and art of the Library of Congress that symbolize its mission
  goals, “to acquire, preserve, and provide access to a universal collection of knowledge and the record of America’s
  creativity, and...to advance knowledge and creativity.”




Above: Aerial View of Washington DC Looking West.
Cover: Interior Dome of the Main Reading Room of the
Thomas Jefferson Building. The Center Painting by Edwin
Blashfield Represents Human Understanding.
Photographs by Carol Highsmith.
September 30, 2011


A Message From the Inspector General
In the last six months we prepared reports on The National Library Service for the Blind and
Physically Handicapped’s planning and implementation of the conversion to digital talking
books; protection of surplus collections materials; assessments of the condition, accountability,
and security of the Music Division’s collections; the telework program; verification and validation
of the Library’s fiscal year (FY) 2011-2016 Multi-Year Affirmative Employment Program Plan;
improper payments; and the FY 2010 financial statements of the Open World Leadership Center.
We also followed up on prior reviews of the “Not-on-shelf ” rate and the Office of Opportunity,
Inclusiveness, and Compliance. During this period, investigations focused on an alleged theft, an
attempted narcotics purchase, and investigative updates on issues from prior semiannual reports.

In the next six months, we will report on in-progress reviews of information technology (IT)
risks, Asian Division collections security, the Librarian’s document tracking system, operations
of the Acquisitions Fiscal Office, criteria for internal control reviews of field offices, a contract
review, a survey of the Library’s fire suppression systems, apparent contractor overcharges, use of
computers in reading rooms, FY 2011 financial statements of the Library and Madison Council,
and in-depth follow-ups on IT strategic planning and contracts management.

This period, our reviews identified at least $17.1 million in funds to be put to better use and more
than $275,000 in questioned costs. We are pleased to report that the Library implemented 21 of
our recommendations from prior semiannual periods.

We appreciate the cooperative spirit Library staff have shown during our reviews.
Our publically releasable reports are available online at www.loc.gov/about/oig.




Karl W. Schornagel
Inspector General
       Table of Contents


        In Summary.......................................................................................................................................         1
        Top Management Challenges........................................................................................................                         5
        Profiles...............................................................................................................................................   9

        Audits, Surveys, and Reviews........................................................................................................                      13
           NLS Digital Conversion....................................................................................................................             13
               Protection of Surplus Collections Materials........................................................................................                15
               Music Division Collections Security....................................................................................................            17
               Telework Program...........................................................................................................................        18
               Music Division Condition and Accountability Assessment....................................................................                         20
               Improper Payments Review II...........................................................................................................             21
               Multi-Year Affirmative Employment Program Plan................................................................................                     23
               Follow-up Review of the Not-on-Shelf Rate.......................................................................................                   25
               Follow-up Review of the Office of Opportunity, Inclusiveness, and Compliance.......................................                                27
               Open World Leadership Center FY 2011 Financial Statements.............................................................                             29
        Investigations..................................................................................................................................... 32
                Significant Criminal and Administrative Investigations......................................................................                      33
                Follow-up on Investigative Issues from Prior Semiannual Periods...........................................................                        34
        Other Activities................................................................................................................................          35
        Review of Legislation and Regulations........................................................................................ 37
        Unimplemented Recommendations................................................................................................. 38
        Implemented Recommendations...................................................................................................                            43
        Funds Questioned or Put to Better Use...................................................................................                                  47
        Instances Where Information or Assistance Requests Were Refused................................... 48
        Status of Recommendations Without Management Decisions................................................ 48
        Significant Revised Management Decisions................................................................................. 48
        Significant Management Decisions With Which OIG Disagrees.........................................                                                        48
        Follow-up on Prior Period Recommendations............................................................................. 48
        Organizational Chart...................................................................................................................... 49
        Hotline Information...............................................................................................Inside Rear Cover




Left: West Entrance of the Thomas Jefferson Building, Library of
Congress, Displaying Prominent Exhibition Banners.

Library of Congress Photograph.
                 In Summary . . .
                 Audits, Surveys, and Reviews
                 In this semiannual period, the Office of the Inspector General (OIG)
                 reviewed the Library’s National Library Service for the Blind and Physically
                 Handicapped (NLS) plans for, and implementation of, a digitally-based
                 Talking Book Program. We found that by taking timely action to modernize
                 its talking book technology, NLS seized an excellent opportunity to save
                 costs, improve efficiency, and provide its patrons higher quality service. We
                 made recommendations regarding the number of talking book machines
                 and titles that should result in savings of at least $17.1 million to the
                 Library.

                 We addressed concerns raised by recent OIG investigations by conducting a
                 performance audit of the Surplus Books Program (SBP). Our audit found
                 that SBP management operated the program in an effective and efficient
                 manner with well-designed operations and internal control. However, we
                 identified certain processing and internal control issues where management
                 could improve operations.

                 Also in this period, we evaluated the collections security controls of the
                 Music Division (MD) because collections security is essential to the
                 Library’s mission to ensure an accessible collection for current and future
                 generations. We recommended that the MD manage its existing space as
                 effectively as possible to improve security for its collection items. This report
                 was not made available to the public because of the nature of its content.
                 Also in the MD, we conducted a high-level survey of collections items
                 and established a baseline for the condition and accountability of materials
                 known to be held as of the date of our report. We plan to continue testing
                 in the MD periodically to confirm the existence of the baseline items and
                 to assess any changes in their condition.

                 In our review of the Library’s telework program, we assessed the program’s
                 controls, IT hardware and security requirements, and integration into the
                 Library’s Continuity of Operations Plan. For the most part, the Library
                 effectively implemented telework best practices and guidance. However,
                 we noted that with improvements in some areas a more efficient telework
                 program could be achieved. This report was also not released to the public.

                 Our second review of the Library’s exposure to improper payments
                 illustrated that there are opportunities to strengthen Library controls
                 surrounding this government-wide problem.




1 • Semiannual Report to the Congress
The Library developed a Multi-Year Affirmative Employment Program Plan
(MYAEPP) for FYs 2011-2016 to affirm its continuing commitment to
merit-based hiring and promotion and agency-wide workforce diversity. The
Office of Opportunity, Inclusiveness, and Compliance (OIC) requested that
we prepare a report regarding the data and conclusions contained within the
MYAEPP. Our report concluded that the minor data errors contained in the
plan were not material to the plan’s conclusions and that the methodology
applied by the OIC was consistent with Equal Employment Opportunity
Commission guidance. Additionally, we made recommendations regarding
the protection of personally identifiable information for performing future
MYAEPP-related analyses.

In our follow-up review of the Library’s “Not-on-shelf ” (NOS) rate, we
were pleased to report that the rate improved. We also identified factors that
may contribute to a higher than necessary NOS rate and determined that
the timeliness and quality of service in the
Collections Access, Loan, and Management
Division is prompt and thorough.

An additional follow-up review of the
Office of Opportunity, Inclusiveness, and
Compliance, revealed that it is effectively
identifying specific groups of people which are
underrepresented in the Library’s workforce.
However, we noted that OIC needs to
become more active in investigating and
addressing Library policies, procedures, and
practices that may be limiting employment
opportunities for these underrepresented
groups.

Finally, we contracted with an independent
public accounting firm to obtain an audit
opinion on the FY 2010 Financial Statements
of the Open World Leadership Center.

These are discussed further beginning on
page 13.



                                                  Above: West (Main) Entrance Doors, Thomas Jefferson Building.
                                                  Photograph by Heliotype Printing Company, 1898. Courtesy of the
                                                  Prints and Photographs Division.

                                                   Semiannual Report to the Congress • 2
                Investigations

                In this period, OIG investigators resolved a case involving theft of reference
                materials from a reading room. The individual, who is not a Library
                employee, was charged with theft in the second degree, a misdemeanor, and
                ordered to make restitution to the Library, perform community service, and
                is prohibited from visiting the Library for one year.

                We also investigated a Library employee who attempted to purchase
                narcotics using a government franked envelope. Although prosecution was
                declined, the employee was suspended without pay.

                In another case, the OIG initiated an investigation based on a previous
                audit of improper payments. The audit identified a Library employee who
                was also an active Library contractor. The investigation determined that the
                overlap in duties was attributed to inadequate management oversight rather
                than intentional employee misconduct.

                The OIG also performed follow-up reviews on previous investigative cases.
                In one case involving the identity theft of a Library employee, the suspect
                was incarcerated and ordered to pay nearly $30,000 in restitution. In
                another case, a Library employee charged with marijuana possession while
                on duty was suspended.

                These are discussed further beginning on page 32.

                Other Activities

                During this semiannual period, the OIG updated its electronic audit
                software program. The new software includes enhanced capabilities and
                improved security features and will improve efficiency by streamlining audit
                processes and further reducing reliance on paper.

                Additionally, the OIG was selected by the Council of the Inspectors General
                on Integrity and Efficiency (CIGIE) to participate on the Council’s audit
                committee. The audit committee serves as a resource for the Inspector
                General audit community and offers insight and leadership on government-
                wide issues such as improper payment initiatives. The OIG is also an active
                member of CIGIE’s investigations committee.




3 • Semiannual Report to the Congress
Lastly, in 2009, the Office of Contracts and Grants Management terminated
the Library’s contract with Macfadden and Associates, Inc. after receiving
a protest to the contract award. Macfadden submitted to the Library a
termination settlement proposal in excess of $315,000. Based on the results
of a 2010 OIG review, the contractor reduced its settlement proposal to
just under $38,000. The Library reached a settlement agreement with
Macfadden which realized a cost savings of over $275,000, in large part due
to the work of the OIG.

These activities are discussed further beginning on page 35.




                                               Above: Historic Book Plate of the Library of Congress.


                                                Semiannual Report to the Congress • 4
                 Top Management Challenges
                 This section provides a collective summary of issues that have been covered
                 over several years of OIG reviews that in our view represent long-term
                 challenges for the Library.

                 Facilities

                 Collections Storage—The Library currently faces a challenge in its mission
                 to properly store and preserve its collections. The floors in the stacks of
                 the Jefferson and Adams buildings are now being used to store the general
                 collections and the Library is double- and triple-shelveing materials. There
                 are upwards of a million overflow volumes. The original construction
                 schedule for Fort Meade collection storage modules would have provided
                 space to house these collections and space for continuing expansion, but
                 the last module intended to store general collections was completed in 2005
                 and filled in 2011. Modules 3 and 4, completed in 2009, were intended
                 for special format collections, which include items such as maps, globes,
                 manuscripts, prints and photographs, sheet music, and others, and are
                 currently on track to be filled within the next year. No funding has been
                 appropriated for future modules at this time.

                 Although the Library is seriously addressing the overflow issue by installing
                 shelving for high-density storage at its Landover warehouse, this facility will
                 only be able to house about a million volumes. As the Library adds about
                 250,000 books and periodicals to the collections each year, the shortage
                 of space will continue to grow. Further exacerbating this issue is the lack
                 of secure storage for some rare and valuable collections. The Law Library,
                 the Music and the Asian divisions, among others, have been forced to store
                 some of their rare materials in less-than-optimal conditions from a security
                 and environmental point of view.

                 Reading Room Space Allocations—The Internet age has allowed the
                 Library to increase public access to its collections by digitizing and placing
                 them online. The Library, through various cutting-edge programs, including
                 the National Digital Information Infrastructure and Preservation Program
                 is at the forefront of preserving and making accessible digital content.
                 Today, the Library’s Web site, www.loc.gov, is among the Internet’s most
                 visited sites, with billions of page hits annually and unrivaled depth and
                 richness of content. However, this shift in access modalities has resulted in
                 a significant decrease in the in-person use of Library materials and resources.
                 As a consequence, there is now a significant amount of underutilized
                 reading room space. Despite the downward trend in readership, the
                 Library has delayed making decisions about possibly consolidating reading



5 • Semiannual Report to the Congress
                                 rooms. Better utilization of reading room space
                                 could result in significant economy and efficiency
                                 by increasing needed collections storage space.

                                 Conference and Training Rooms—An OIG audit
                                 identified an increasing number of conference and
                                 training facilities in the Library’s James Madison
                                 Memorial Building. In 2008 there were more
                                 than 120 such facilities in the building totaling
                                 more than 42,000 square feet, which were, in
                                 many cases, underutilized. Consolidating and
                                 centrally locating and managing conference and
                                 training rooms, as the Copyright Office has done,
                                 would make a substantial contribution toward
                                 efficiency in the Library’s use of floor space.

                                 Information Technology
                                 Infrastructure

                                 In 2009 the OIG issued an audit report that
                                 focused broadly on the Library’s plan for
                                 managing its IT infrastructure investments.
                                 The audit looked at 1) whether the Library’s IT
                                 strategic plan aligns with its overall strategic plan,
                                 2) the validity and integrity of the IT plan, 3) the
                                 appropriateness and effectiveness of the Library’s
                                 IT organizational structure and placement, and
                                 4) the extent to which relevant recommendations
                                 made by the National Research Council in a 2000
                                 report were implemented by the Library. We made
                                 a series of recommendations about 1) maturing
                                 the Library’s IT strategic planning process, 2)
                                 making IT investments from a cost/benefit and
                                 institution-wide perspective, 3) considering
                                 organizational changes, 4) implementing an
                                 Enterprise Architecture program for planning
                                 future technology, and 5) improving customer
                                 service.




Outer Edges, this page and following page: North Doors of
the Main Entrance Porch of the Thomas Jefferson Building
Depicting Memory with Her Husband’s Helmet and Sword,
and Imagination with Her Lyre.
Photograph by Carol Highsmith.
In FY 2010, the Library obligated $107
million for IT related expenditures (37% of its
discretionary budget) for services, hardware,
software, and maintenance.           We believe
Library management’s continued focus on
implementing these recommendations will
result in substantial long-term efficiencies.

In 2002, the Library opened a new Alternate
Computing Facility (ACF). The purpose of
the facility was to provide backup storage for
data located on Capitol Hill and a recovery
mechanism for important software applications
so that the Library could resume business
in at least a limited capacity in the absence
of its Capitol Hill data center. In 2009, we
reported that it was unclear whether or not the
ACF could successfully provide service to its
customers in the event of a catastrophic failure
of the main data center. Although the Library
has developed plans for testing, there have been
significant delays, and exceedingly restricted
resources could result in further delays. As the
Library’s financial system is now cross-servicing
four external clients, delays in failover testing
take on additional relevance.

Performance-based Budgeting

As a result of an OIG audit, and at the
direction of Congress, the Library is adopting
a performance-based budgeting system loosely
related to the Government Performance and
Results Act. Previously, the Library was using
a budgeting system that primarily analyzed
only incremental additions to the base, or new
initiatives. Modern budgeting systems require
that programs be evaluated each budget cycle,
and funds be allocated based on this analysis.
The adoption of performance-based budgeting
will allow the Library to better analyze and report
its activities and more successfully compete for diminishing discretionary
funding. The Library has revamped its strategic planning model and
updated its policy on planning, budgeting, and program performance
assessment. Library Services has implemented notable improvements.
However, there is still much more work to be done. The Library has not yet
developed a mechanism for evaluating programs; for developing consistent,
valid, and verifiable metrics; or a methodology that would at least begin to
relate resource allocations to program performance.

Contracting

A series of OIG reports dating back to 2002 document weaknesses that have
beset the Library’s contracting function. Principal areas of concern include
questionable understanding of federal contracting by participants in the
contracting chain, from the service and support units to the contracting
office; inadequate staffing for contracting operations, including a lack of
continuity in leadership in the Office of Contracts and Grants Management
(OCGM); a technically questionable financial system contracting module;
and ineffective contract review procedures. These deficiencies may prevent
the Library from obtaining the best value in contracts and have exposed the
Library to liability.

Although work we are currently performing on assessing authorized staffing
levels in OCGM suggests that they may be adequate, the office has suffered
from unprecedented turnover levels in the last several years which have
severely impacted service to its customers: in FYs 2009 and 2010, the office
experienced staff turnover rates of 36% and 53%, respectively. The OIG
is initiating another review of the Library’s contracting activities and will
report on the results in the next Semiannual Report to the Congress.




                                                 Semiannual Report to the Congress • 8
                 Profiles
                 Library of Congress

                 The Library of Congress is the research and information arm of the United
                 States’s national legislature and the world’s largest storehouse of knowledge.
                 The mission of the Library is to support the Congress in fulfilling its
                 constitutional duties and to further the progress of knowledge and creativity
                 for the benefit of the American people. The mission is accomplished through
                 more than 4,000 employees and contractors, and $800 million in annual
                 appropriated funds and other financing sources.

                 Founded in 1800, the Library of Congress is also the nation’s oldest federal
                 cultural institution, holding more than 147 million items on 838 miles
                 of shelves. These items include books, manuscripts, maps, prints and
                 photographs, printed music, sound recordings, films, and microforms. Half
                 of the Library’s collections are from outside the United States, representing
                 470 languages. In addition to its three Capitol Hill buildings and Taylor
                 Street Annex in Washington, DC, the Library operates six overseas offices
                 and stores collections material in purpose-built facilities in Maryland and
                 at the National Audio Visual Conservation Center in Culpeper, Virginia.
                 Nearly 24.6 million original source, analog items have been digitized and
                 are accessible at www.loc.gov. The Library also holds an exponentially
                 expanding collection of digital-born content.

                 The Library’s core organizational components are:

                    •	   Library Services,
                    •	   The U.S. Copyright Office,
                    •	   The Congressional Research Service,
                    •	   The Law Library,
                    •	   The Office of Strategic Initiatives, and
                    •	   The Office of Support Operations.

                 Library Services performs the traditional functions of a national library:
                 acquisitions, cataloging, preservation, and reference services for both digital
                 and conventional collections. It operates the National Library Service for
                 the Blind and Physically Handicapped and the American Folklife Center,
                 among other programs.

                 The U.S. Copyright Office administers the copyright laws of the nation and
                 registers copyrightable material; its deposits of intellectual material (books,
                 music, and movies) substantially contribute to the Library’s collections.




9 • Semiannual Report to the Congress
The Congressional Research Service supports the legislative process by
providing exclusively to Congress objective, confidential assessments of
public-policy issues, and legislative options for addressing those issues.

The Law Library assists Congress and the legislative process by supporting
comprehensive research on foreign, comparative, international, and
U.S. law and other legal reference services.

The Office of Strategic Initiatives directs the national program for long-
term preservation of digital cultural assets, leads a collaborative institution-
wide effort to develop consolidated digital future plans, and integrates the
delivery of information technology services.

The Office of Support Operations provides centralized leadership and
oversight of infrastructure services and includes: Human Resources
Services; Integrated Support Services; the Office of Security and Emergency
Preparedness; the Office of Contracts and Grants Management; and the
Office of Opportunity, Inclusiveness, and Compliance.

Last year, services provided by the Library included:

    •	   Fulfilling 527,466 reference requests,
    •	   Circulating 25 million disc, cassette, and Braille items to more
	        than 800,000 blind and physically handicapped patrons,
    •	   Registering 636,527 copyright claims,
    •	   Receiving 31,000 items daily and adding more than 7,000 items 		
	        daily to 	its collections,
    •	   Preparing 1,405 legal research reports for Congress and other 		
	        agencies, and
    •	   Providing to Congress access to more than 7,800 reports on
	        legislative issues and preparing more than 3,300 tailored analyses.

The Library of Congress also recorded 77 million visits and 581.1 million
page-views of its primary source files on its Web site, and received 1.7
million on-site visitors.




                                                  Above: Detail of North Doors of the Main Entrance
                                                  Porch of the Thomas Jefferson Building.
                                                  Photograph by Carol Highsmith.


                                                  Semiannual Report to the Congress • 10
                                 Office of the Inspector General
                                 The establishment of statutory federal Inspectors General began in 1978
                                 to empower independent audit and investigative organizations to focus on
                                 fraud, waste, and abuse within federal agencies. The Library of Congress
                                 OIG was established in 1988 as a non-statutory office deriving its authority
                                 from the Librarian of Congress. The OIG became statutory with the
                                 passage of the Library of Congress Inspector General Act of 2005, with a
                                 mandate to:

                                     •	   Conduct and supervise audits and investigations
                                 	        relating to the Library of Congress,
                                     •	   Lead, coordinate, and recommend policies to 			
                                 	        promote economy, efficiency, and effectiveness, and
                                     •	   Keep the Librarian of Congress and the Congress
                                 	        fully and currently informed about problems and
                                 	        deficiencies relating to the administration and operations
                                 	        of the Library of Congress.

                                 The OIG is a member of the Council of the Inspectors General on Integrity
                                 and Efficiency, a unified council of all federal statutory Inspectors General,
                                 and serves on the council’s audit and investigations committees.

                                 This Semiannual Report to the Congress is a part of the OIG’s statutory
                                 reporting requirement and is organized to address the major functions of
                                 the office including:

                                     •	   Significant audits, investigations, and other reviews 		
                                 	        and activities of the OIG,
                                     •	   Review of legislation and regulations affecting the Library,
                                     •	   Library decisions on OIG recommendations and the status
                                 	        of implementation, along with any resulting monetary 		
                                 	        benefits.

                                 Audits are in-depth reviews that address the efficiency, effectiveness, and
                                 economy of the Library’s programs, activities, and functions; provide
                                 information to responsible parties to improve public accountability;
                                 facilitate oversight and decision-making; and initiate corrective action as
                                 needed.




Right: North Door Main Entrance Porch of the
Thomas Jefferson Building Depicting the Passage of
Oral Knowledge from One Generation to the Next.
Photograph by Carol Highsmith.

 11 • Semiannual Report to the Congress
Some audits address whether financial statements fairly present financial
positions, results of operations, and cash flows. They also assess whether an
entity has adequate internal control systems and complies with applicable
laws and regulations. The OIG also performs related types of reviews such
as inspections and attestations.

Investigations are typically based on alleged or suspected wrongdoing by
agency employees, contractors, or others responsible for handling federal
resources. Violations of Library regulations or fraud committed against
the Library can result in administrative sanctions and criminal or civil
prosecution. Contact information for the OIG Hotline is located on the
inside rear cover of this report.

Our staff is educated and certified in various disciplines. We are, collectively,
four certified public accountants (CPA), two attorneys, two certified internal
auditors (CIA), two certified information systems auditors (CISA), three
special agents, an investigator, and other highly qualified staff.

OIG reports are available at www.loc.gov/about/oig.
                 Audits, Surveys, and Reviews
                 Library Services
                 NLS Effectively Planned and Implemented
                 the Digital Conversion, But Needs to
                 Reduce Its Requirements Projections

                 Audit Report No. 2011‐PA‐104
                 October 2011

                 The Library’s National Library Service for the Blind and Physically
                 Handicapped (NLS) administers a free program, which provides reading
                 materials to individuals who are blind or physically handicapped. The NLS
                 implements its program through a network of regional and sub-regional
                 libraries that distribute NLS audio books, playback equipment, and Braille
                 publications to eligible borrowers at no cost.

                 We conducted this performance audit to evaluate NLS’s plans for, and
                 implementation of, a digitally-based Talking Book Program, which
                 includes the manufacture and distribution of digital talking book machines
                 (DTBMs), and the duplication of digital talking books on flash cartridges.
                 Summaries of our audit results follow.

                 NLS’s Project Planning and Processes Resulted in an Effective Digital
                 Program—NLS took steps to actively and effectively involve stakeholders
                 in the project, especially before the new digitally-based system was fully
                 deployed. This ensured that NLS could identify the system’s problems in a
                 timely manner and take corrective action when necessary. By maintaining
                 active communication with stakeholders and conducting testing on a pilot
                 project basis, NLS demonstrated effective project management.

                 NLS Should Reduce its Estimate of DTBMs Needed—In December
                 2010, NLS projected that the program should have about 741,000 DTBMs
                 available for loans. During our fieldwork, NLS made the decision that the
                 550,000 DTBMs already purchased should generally be adequate for FY
                 2012 and 2013. Before committing to purchasing more DTBMs, NLS
                 wants to refine its estimates. Further, instead of “pushing” machines out
                 into the network, NLS will now react to demand from the network libraries
                 for additional DTBMs. We agree with NLS’ decision to delay purchasing
                 more DTBMs. Our estimates indicate that 550,000 should be sufficient
                 for the short-term; this will result in a savings of about $14.8 million.
                 We recommended that NLS: 1) reevaluate its projections of DTBM
                 requirements and 2) encourage all network libraries to periodically review
                 their patron records and remove inactive accounts.



13 • Semiannual Report to the Congress
NLS Needs to Reflect BARD Use in Its Budget Request to Produce New
Titles on Flash Cartridges—NLS’ Braille and Audio Reading Download
(BARD) service results in more efficient service to the patron and savings
to NLS by not having to duplicate as many copies of a title on a flash drive
cartridge. However, NLS has not factored the program efficiency benefit
that the service yields into its budget requests for talking book production.
An estimated 13.8 percent of NLS’s patrons have registered to use BARD
and registration is on the upswing. We recommended that NLS amend its
FY 2012 and 2013 budget requests by reducing the requested funding for
duplicating new titles by at least 15 percent each year. This would reduce
the program’s funding by about $2.3 million per year.

NLS Needs to Determine the Full Costs of Its Products and Services to
Better Inform the Congress and States—NLS reported to the network
regional libraries that the FY 2010 federal investment for a DTBM was
$156.38 and $12.80 for a digital book in English. However, these costs
are not NLS’s full costs because they do not include dollar allocations for
approximately $14 million in compensation (i.e., salaries and benefits) for
NLS’s staff, nor the cost for NLS’ rental space. We recommended that
NLS apply Managerial Cost Accounting Concepts and Standards for the
Federal Government to internal and external reports it develops regarding
the Talking Book Program’s costs.

NLS Inventory Control is Adequate, But Issues Stemming From Present
Non-Integrated Systems Must Be Resolved—We confirmed that NLS is
effectively tracking and accounting for the DTBMs it distributed to the
network regional libraries. However, the systems that the 56 network
libraries presently use to track the whereabouts of DTBMs assigned to
patrons are not integrated and the data is not reliable. NLS is exploring
options for implementing a new integrated
system to help address shortcomings. We
also found that 31 of the 56 network libraries
reported that they had not performed
statistical testing of their DTBM inventories
as recommended by NLS. We recommended
that NLS explore the cost benefits of testing
DTBM inventories as part of its periodic
site visits to the network libraries to ensure
appropriate accounting for the DTBMs
provided by NLS.

Management concurred with our                   Above: Detail of Main Entrance Doors of the Thomas Jefferson
                                                Building, Depicting Memory.
recommendations.
                                                Photograph by Carol Highsmith.


                                                Semiannual Report to the Congress • 14
               Library Services
               Low Cost Enhancements Will
               Protect Surplus Collection Materials’
               Movement to America’s Libraries

               Audit Report No. 2010-PA-106
               September 2011

               The Surplus Books Program (SBP) operates as an ambassador of goodwill
               for the Library of Congress. The Library makes available its surplus books
               to educational institutions, public bodies, and non-profit tax-exempt
               organizations in the United States. The SBP functions as a model program
               by transforming excess collection materials into fresh resources for America’s
               financially strapped municipal libraries and non-profit organizations. With
               a limited budget, the program leverages the Library’s collection acquisition
               activities to benefit Library stakeholders.

               Recent OIG investigations of prohibited sales of SBP materials by program
               participants partly led to this performance audit. Our audit found that SBP
               management operated the program in an effective and efficient manner with
               well-designed operations and internal control. However, we identified certain
               processing and internal control issues where management could improve SBP
               operations. The following is a summary of our findings and recommendations.

               SBP Management Should Improve Elements of the Program’s Internal
               Control—We identified four opportunities to improve SBP’s existing system
               of internal control with minimal costs. First, we found instances where
               unqualified entities were participating in the program, including some “for
               profit” organizations. Our analysis found that the process used to obtain and
               review participant eligibility created conditions where unqualified participants
               could be admitted into the program. We recommended revising this process
               to better screen potential participants.

               Second, we observed blank Congressional franking labels – essentially, postage
               – in an unsecured card catalog cabinet, and SBP management was unable to
               account for all franking labels in its custody. We recommended improvements
               in the way franking labels are stored and accounted for.

               Third, we concluded that the General Property Pass (GPP) used for hand-
               carrying SBP materials out of the premises was generic in appearance, easy to
               reproduce, and not serialized, thereby inhibiting accountability for all passes.
               We also determined that there was no official responsible for overseeing the
               issuance, use, or functionality of the GPP. We recommended improvements
               in controls over GPPs.



15 • Semiannual Report to the Congress
Finally, despite multiple requests from SBP management, the Architect of
the Capital has not repaired the inoperable door lock and alarm to the main
entrance of the SBP. We recommended corrective action.

LS Management Should Pursue SBP Processing Efficiencies—We observed
some opportunities to improve efficiency without investing significant
additional resources: First, many of the SBP processes are manual. Manual
analytical and reporting processes are both labor intensive and vulnerable to
processing errors. We believe that the introduction of a computer spreadsheet
application for compiling participant information and processing data will
improve SBP management’s data collection and analysis capabilities and
efficiency.

                                                   Second, SBP management
                                                   has not documented
                                                   operating procedures;
                                                   we recommended that
                                                   management document
                                                   all operating procedures.
                                                   And finally, the Library’s
                                                   longstanding policy is to
                                                   encourage other federal
                                                   agencies to transfer their
                                                   surplus library materials
                                                   to the SBP. We observed
                                                   that most of the surplus
                                                   materials received are
                                                   pulped and discarded.
                                                   We recommended that
                                                   management conduct an
                                                   evaluation as to whether
                                                   the Library obtains a net
                                                   benefit from the material
                                                   handling efforts required
                                                   to process the transfers.

                                                   Management agreed with
                                                   our recommendations.


                                               Above: The Great Hall, Depicting a Mosaic of Minerva, Goddess of
                                               Wisdom and Protector of the Arts and Sciences. Second Floor, Thomas
                                               Jefferson Building.

                                               Photograph by Michael Dersin.


                                               Semiannual Report to the Congress • 16
Library Services
Music Division Can Improve the Security of Its
Collections by Implementing Stronger Controls

Audit Report No. 2011‐PA‐101
September 2011

The Library of Congress’ Music Division (MD) is the custodian of
approximately 21 million items spanning more than one thousand years of
Western music history and practice. The MD secures 68,839 of its most
rare and valuable holdings in a vault. Examples of the MD’s most valuable
items include instruments by Antonio Stradivari, original manuscripts by
composers such as Haydn, Mozart, Beethoven, Brahms, and George &
Ira Gershwin, among other notables. During FY 2010, the MD provided
service to 3,679 researchers.

Collections security is essential to ensuring an accessible collection for
current and future generations. Accordingly, we performed this audit to
evaluate the collections security controls the MD implemented to protect
its collections. Summaries of significant issues we identified during our
audit follow. Some findings and recommendations not intended for public
release have been redacted or removed from this summary.

The MD Needs to Provide Enhanced Security—Library of Congress
Regulation 610-2, Security of the Collections: Use, Section 4,
Responsibilities for Security of the Collections, requires that each division
chief “…[e]nsures that the conditions and housing of all material are
tadequate to minimize risk…” Our recommendation, based on our
observations, was to enhance security for some of the MD’s items.
The MD Should Strengthen Reading Room Policies
and Procedures to Better Safeguard Manuscripts—
Manuscripts comprise 75 percent of the MD’s
collections, and, compared to books and other research
items, their use by researchers is more difficult to
monitor. MD management has implemented measures
to control researchers’ entries into and exits from its
Performing Arts Reading Room, to monitor researchers’ activities in the
reading room, and to account for manuscripts that researchers request for
review. We recommended that the MD implement additional controls
aimed at protecting manuscripts.

Management concurred with our recommendations.

Library-Wide
Telework Program Requires
Stronger Guidance and Oversight

Audit Report No. 2010-PA-102
June 2011

Telework is a work arrangement in which an employee regularly performs
officially assigned duties at home or another worksite convenient to the
employee’s residence. Approximately 12 percent of the Library’s permanent
staff teleworked in June 2010 and the percentage is increasing. We
performed this audit of the Library’s Telework Program to assess the
program’s controls, IT hardware and security requirements, and integration
into the Library’s Continuity of Operations Plan. For the most part, the
Library effectively implemented telework best practices and guidance.
However, a more efficient telework program could be achieved through
a Library-wide management approach that includes 1) ensuring telework
fits relatively seamlessly into the Library’s job streams and is cost effective
and 2) more effectively managing program performance. Summaries of
significant issues we identified during our audit follow. Some findings and
recommendations not intended for public release have been redacted or
removed from this summary.

Library Following Best Telework Practices—The Library has generally
implemented 17 of the 25 Government Accountability Office‘s key
practices for a successful telework program. To enhance control further,
we recommended that the Library, among other things, 1) determine if a

                                                 Left and Above: Printer’s Mark of John Day in the North
                                                 Corridor Second Floor of the Thomas Jefferson Building
                                                 and in an 1897 Library of Congress Guide Book.
                                                 Photograph at Left by Carol Highsmith.

                                                  Semiannual Report to the Congress • 18
Telework Coordinator would add value to the program, 2) collect data on,
and evaluate the costs and benefits of, teleworking to determine whether
it provides a cost-effective means to perform specific work requirements,
3) develop a telework health and safety checklist, 4) develop a mandatory
interactive telework training program, and 5) address the issue of allowing
certain sensitive data to be taken offsite by teleworkers.

Telework is a Benefit, not an Entitlement—The Library should not
produce a certain number of teleworkers simply to satisfy the concept of
telework or to reward staff. Supervisors are not fully ensuring that the
selected work is appropriate, measureable, does not disrupt work processes,
and does not entail undue expenses for equipment, setup, or support. We
observed that teleworking by Library Services catalogers imposed additional
work on other units. We recommended that the Library 1) review positions
to determine if they are prone to telework without creating an undue
additional burden on other areas, 2) ensure that only positions prone to
teleworking are offered this benefit, and 3) institute policies requiring the
availability of teleworkers by email, telephone, and in person if required.

The Library Needs to More Effectively Incorporate Telework into its
Continuity of Operations Plan (COOP)—The Library has not periodically
conducted exercises or tests to evaluate the telework abilities of staff during a
COOP event. Further, many supervisors expected to work during a COOP
event are not regularly teleworking and do not have a telework agreement as
recommended by the Office of Personnel Management. We recommended
that senior Library management incorporate telework scenarios in COOP
exercises, require employees expected to telework during a COOP event to
have in place a telework agreement, and practice for such an event.

Management concurred or partially concurred with 10 of our 11
recommendations. However, management noted that implementing most
of our recommendations would have to be negotiated with the Library’s
labor organizations.




                                                              Below: Niche Showing Carved Figure Head,
                                                              Near Printer’s Marks, Second Floor Corridor,
                                                              Thomas Jefferson Building.
                                                              Photograph by Carol Highsmith.
Library Services
Statistical Measure of the Condition
and Accountability of the Music Division’s Holdings

Attestation Report No. 2010-AT-104
August 2011

The Music Division (MD) has custodial responsibility for approximately 21
million items, including thousands of scores, music histories, bibliographies,
theory books, music journals, microforms, manuscripts (both music and
literary), as well as more ephemeral materials such as scrapbooks, programs,
and photographs. Many of these items are priceless one-of-a-kind,
irreplaceable treasures.

To measure the Library’s progress in maintaining and improving its collection
controls in the MD and all of the Library’s other special collections, we
contracted in 1998 with KPMG, a consulting firm, to develop a methodology
for statistically measuring changes in both the condition and accountability
(i.e., ability to locate items) of a collection over time.

This was the first assessment we performed in the MD. Accordingly, this
review established the baseline for materials known to be held as of the
date of our report. We plan to continue testing in the MD periodically to
confirm the existence of the baseline items and to assess any changes in their
condition. While evaluating their condition, we also expanded our testing
protocol by noting whether the test items had identification markings and
attempted to locate a random sample of additional items we chose from the
MD’s inventory records.

Based on our testing, we determined the existence of the 150 items in
our baseline sample and we projected that nearly 96 percent of the MD’s
collection is in “good” or better condition. In addition, we confirmed
that the MD is complying with the Library’s policy for marking materials.
Markings are important because it may be difficult to prove ownership in
their absence.

Finally, we were able to physically locate 99.8 percent of the additional
items we randomly chose from the MD main entry card catalog and the
Library’s online catalog.

Management concurred and made some minor recommendations for
changes not affecting the substance of this report.




                                                Semiannual Report to the Congress • 20
                 Library-Wide
                 Improper Payments Review II

                 Audit Report No. 2011-SP-101
                 May 2011

                 In FY 2010, improper payments made by the federal government totaled
                 $125 billion. Improper payments by any federal agency can create public
                 distrust and inefficiencies. In the federal arena, the Office of Management
                 and Budget (OMB) has taken the lead by tasking executive agencies with
                 measuring and reporting improper payments and implementing corrective
                 actions. Although OMB has no jurisdiction over the Library of Congress,
                 Library management has been vigilant in joining all federal entities in their
                 efforts to control and eliminate improper payments.

                 To evaluate the Library’s exposure to improper payments, the OIG
                 implemented a series of reviews to assess the effectiveness of the Library’s
                 controls for reducing improper payments. This was the second report in this
                 series.

                 Improper payments are generally defined as payments that should not have
                 been made or were made in an incorrect amount. Any payment an agency
                 makes to an ineligible recipient or for an ineligible service, duplicate payment,
                 payment for services not received, or payment in an incorrect amount meets
                 the definition of an improper payment. In addition, when an agency cannot
                 discern the propriety of a payment due to insufficient documentation, the
                 payment also qualifies as improper.

                 We reviewed Library disbursements for the period October 1 to November
                 30, 2010. This review included an expanded scope from our initial review.
                 In addition to a review for duplicate payments, we also:

                 •	      analyzed purchase card (p-card) transactions for compliance with 		
                 	       the Library’s policy, and
                 •	      searched Library disbursements for indications of conflicts of 		
                 	       interest involving Library employees and vendors.

                 We found the following issues:

                 Improper P-Card Usage of the Gift Shop Requires Alternate Solution—
                 The Finance and Accounting section in the Office of Business Enterprises
                 (OBE) oversees gift shop operations. In conducting gift shop business OBE
                 purchases retail inventory using a Library-issued p-card. During the review




21 • Semiannual Report to the Congress
period, we found that OBE violated p-card regulations on 18 occasions by
splitting p-card orders to circumvent the established single purchase limit of
$3,000. OBE violations totaled $13,230 in purchases over the spending limit.

Recognizing that OBE must have efficient means to order and re-
order retail stock, we
recommended that
Library management
develop alternative
procedures to assist
OBE in ordering retail
inventory or revise
the existing p-card
regulations to prevent
future violations.

Controls Needed to
Prevent Conflicts of
Interest of Employees
and Contractors—
Library policy prohibits
awarding contracts to
active federal employees.
Our review determined
that Library controls
were ineffective in
preventing and detecting such conflicts of interest. We found a case where an
employee concurrently received compensation as a contractor. Over a seven-
month period, the employee received $19,000 for working in Library Services’
Hispanic Division while invoicing the Library $9,145 as a contractor for the
World Digital Library. The contracting services included Web site design,
cataloging of metadata, and translational services.

We recommended that Human Resources Services (HRS) and the Office of
Contracts and Grants Management develop a process for comparing employee
and contractor data to identify and prevent such conflicts of interest.

Management concurred with our findings and recommendations.



                                                 Above: Interior Detail of Marble Columns on the Second
                                                 Floor of the Thomas Jefferson Building with Background
                                                 View Overlooking the Main Reading Room (Detail of
                                                 Statuary on Page 31).
                                                 Photograph by Carol Highsmith.

                                                 Semiannual Report to the Congress • 22
                                Office of Opportunity,
                                Inclusiveness, and Compliance
                                Verification and Validation of FY 2011-2016
                                Multi-Year Affirmative Employment Program Plan

                                Special Report No. 2011-PA-106
                                August 2011

                                The Library’s history of formalizing its affirmative action plan dates back to
                                the 1970s. In response to evolving needs, the Library developed a Multi-
                                Year Affirmative Employment Program Plan (MYAEPP) for FYs 2011-2016
                                to affirm its continuing commitment to merit-based hiring and promotion
                                and agency-wide workforce diversity. The MYAEPP establishes outcomes,
                                strategies, and performance measures to assist Library managers in acquiring
                                and retaining a diverse workforce. It also provides the means to help managers
                                monitor workforce statistics and objectively evaluate how well they are
                                implementing the plan.

                                This report, prepared in response to a request by the Office of Opportunity,
                                Inclusiveness, and Compliance (OIC), provided the results of our review of
                                the data and conclusions contained within the FY 2011-2016 MYAEPP. The
                                objectives of our review were to 1) confirm the accuracy, completeness, and
                                reliability of data included in the current plan and 2) determine whether the
                                conclusions in the current plan were supported by an appropriate methodology.
                                Summaries of significant issues we identified during our review follow.

                                The MYAEPP Contains Minor Errors—The data in the Workforce Analysis
                                section of the current MYAEPP contains some minor inaccuracies. However,
                                we concluded that the inaccuracies were not material and did not affect the
                                conclusions and recommendations in the plan. We recommended that the
                                OIC strengthen its quality controls for assembling MYAEPP data as necessary
                                and ensure that those controls are effectively applied when updating data and
                                analyses for future plans.

                                The OIC’s Methodology is Consistent with EEOC Guidance—The
                                methodology the OIC applied in preparing the MYAEPP is consistent with
                                that used by executive branch agencies to meet reporting requirements related
                                to the Equal Employment Opportunity Commission’s Management Directive
                                715 (this directive describes federal agency standards for developing model
                                EEO programs). Therefore, we believe that the methodology OIC used in
                                developing the MYAEPP is an appropriate way to document the Library’s
                                EEO status.


Right: Main Reading Room of the Thomas jefferson Building.
Photograph by Michael Dersin.

23 • Semiannual Report to the Congress
         HRS Needs to Ensure Personally Identifiable Information
       is Protected—Data retrieved from the National Finance Center
     database that was developed for the MYAEPP included social security
   numbers for some members of the Library’s workforce even though such
  information is not required for or included in the plan. We recommended
that the Director of Human Resources Services (HRS) ensure that
appropriate controls are in place to adequately protect personally identifiable
 information, and ensure that social security numbers are excluded from
   data provided to service/support units outside of HRS, such as OIC, for
        performing MYAEPP-related analyses.

         Management’s Response and Comments from the Office
         of the General Counsel—Management concurred with our
       recommendations. The Office of the General Counsel (OGC)
  responded that the methodology used in the MYAEPP did not strictly
   comply with MD-715 because it excluded data for white males and it
  did not necessarily use the relevant Civilian Labor Force statistics.

 Concerning OGC’s commentary, we wish to make clear that the MYAEPP
is the product and representation of Library management, which includes
both the OIC and OGC. We assumed that the OGC was provided an
opportunity to review and comment on the October 2010 draft MYAEPP
through the Library’s regular review process. We urged the OGC to address
its comments directly to the OIC.

We are pleased to have been provided an opportunity to independently
review and validate the data contained within the MYAEPP.

Library Services
Follow-Up Review of the Not-on-Shelf Rate

Audit Report No. 2011‐PA‐107
May 2011

The Collections Access, Loan, and Management Division (CALM) of
Library Services provides the Library’s primary retrieval service for general
collections, comprising approximately 14 million non-rare items. CALM
responds to approximately 1,500 retrieval requests each workday. We
surveyed the division’s material retrieval service in early 2007 and found
that 12.7 percent of requested materials were in “Not-on-shelf ” (NOS)
status according to data provided by CALM.
In view of the significance of the NOS rate, we performed a follow-up
review on our 2007 survey. We determined the current NOS rate based on
our own statistically representative sample of 203 general collection items;
identified significant factors which are, or could be, yielding a higher-than-
necessary NOS rate; and evaluated the timeliness and quality of CALM’s
material retrieval service. The following sections provide a summary of our
follow-up review.

The NOS Rate has Improved—The NOS rate for our 203-item sample was
7.9 percent compared to the 12.7 percent rate we reported in 2007. At a
status conference, we provided Library Services with a list of the 16 items
not located after CALM’s normal search procedures entailing three separate
searches. CALM officials subsequently located 11 of the 16. Recognizing
the issues brought to light by this review, CALM is attempting to
accomplish improved service through training and quality control reviews.
This includes performing quality control checks on 100 percent of the NOS
reports. Previously, this quality assurance activity was not performed on all
NOS reports. We recommended that CALM track the NOS rate by deck
attendant and utilize this information in managing staff performance.

Significant Factors Which Are/Could Be Yielding a Higher-than-Necessary
NOS Rate—While performing our statistical sample testing, we observed
several issues that are or could make the NOS rate artificially high. These
issues include:

1. 	    The Integrated Library System permits patrons to request “In-		
	       Process” items that likely are not on the shelf;
2.	     Foreign language materials may be more difficult to locate because 	
	       for much of the collection acquired prior to calendar year 2000 		
	       which is in the custody of the Area Studies divisions, the Online 		
	       Public Access Catalog record incorrectly shows the item should be 	
	       requested through the general reading room;
3.	     Decks in the Jefferson and Adams Buildings are cluttered with 		
	       books on the floor and books double- and triple-shelved;
4. 	    Errors on the call number label or catalog record may affect locating
	       the item; and
5. 	    The Integrated Library System (ILS) is not set up to automatically
	       route the offsite copy if the local copy is NOS. Instead of
	       automatically routing the offsite copy, readers are alerted by the 		
	       ILS that an offsite copy will be delivered the following day only if 		
	       requested.

                                                Left: Detail of Marble Column in the Main Reading
                                                Room, Thomas Jefferson Building.
                                                Photograph by Carol Highsmith.

                                                 Semiannual Report to the Congress • 26
                     We recommended that CALM: 1) ensure that items shown with incorrect locations
                     (such as foreign materials) be corrected and 2) track whether there is a correlation
                     between NOS items and “cluttered” deck shelving.

                     Timeliness and Quality of CALM’s Retrieval Service—CALM personnel generally
                     retrieve requested items promptly and, when necessary, perform additional searches to
                     locate elusive items within reasonable lengths of time. If CALM personnel determine
                     that an item is in NOS status through a first search attempt, the CALM Quality
                     Assurance Team conducts a second search on the day following the initial search.

                     Management concurred with our findings and recommendations.

                     Office of Support Operations
                     Follow-up Review of the Office of
                     Opportunity, Inclusiveness, and Compliance

                     Audit Report No. 2011‐PA‐106
                     June 2011

                     In 2007 and 2008, the OIG prepared reports on the Library’s diversity program–then
                     the Office of Workforce Diversity (OWD)–which identified numerous organizational
                     and functional problems within the program. Subsequent to these reports, the OWD
                     was renamed the Office of Opportunity, Inclusiveness, and Compliance (OIC) and
                     the Library’s Executive Committee approved the Library’s FY 2011-2016 Multi-Year
                     Affirmative Employment Program Plan (MYAEPP). The MYAEPP provides a strategic
                     methodology to assess the Library’s achievement of diversity in its workforce.

                     This report provided the results of a follow-up review we performed to assess the
                     Library’s progress in addressing issues we identified in our previous reports. Given the
                     OIC work that lies ahead, we will continue to track the office’s progress in implementing
                     the MYAEPP and in eradicating barriers to equal employment opportunities in the
                     Library.

                     Improved Staffing and Focus on Analysis and Oversight—The OIC has reduced
                     staffing to almost half of the level that OWD had in 2007, focused more effort on
                     analysis and oversight, and published the Library’s FY 2011-2016 MYAEPP. However,
                     its efforts to conduct barrier analyses have been hampered by high staff turnover.

                     More Accountability Needed—Implementing the MYAEPP will require a
                     collaborative effort with the OIC working with the selection officials, service unit
                     officials, and HRS. We recommended that OIC, in collaboration with the Library’s
                     Human Capital Management Flexibilities Working Group, complete the barrier
                     identification and elimination process initiated with the MYAEPP.

Right: Main Reading Room, View of Statue of Art on the Column
Entablature Between Two Alcoves. Thomas Jefferson Building.
Photograph by Carol Highsmith.

 27 • Semiannual Report to the Congress
Improved Representation—The MYAEPP recommends some actions that the
Library should take to improve the representation of Hispanics and persons with
disabilities within the Library’s workforce. Implementing the suggested recruitment
strategies is dependent upon Library managers ensuring that selection officials are held
accountable. In a future review, we will seek to determine whether the OIC and Library
management have taken appropriate actions to develop and implement recruitment
strategies for improving Hispanic representation in the Library’s workforce.

Inclusion of the OIC Director in Major Decisions Affecting Diversity—The
Librarian and senior Library officials have not included the OIC in major decisions
involving workforce diversity since the organizational changes were made. We
recommended that the Chief for Support Operations seek commitment from the
Librarian and other senior officials to include the OIC Director in senior-level
discussions and decisions which involve workforce diversification issues pertaining to
the Library.

Failure to Post Voluntarily “No FEAR” Data—In our 2008 report, we recommended
that the Library voluntarily make its “No FEAR” (Notification and Federal Employee
Antidiscrimination and Retaliation Act of 2002) data available to staff via the Library’s
staff intranet Web site. Implementing this recommendation dictates a change in policy
requiring Executive Committee (EC) approval. The EC has not made a final decision
regarding this recommendation.
              Exit Interviews Providing Limited Information—The Library’s HRS
              automated exit interview questionnaire solicits voluntarily the staff member’s
              perspective on issues involving workplace culture and values, and may provide
              useful information for the OIC. However, the questionnaire does not ask the
              departing staff member to identify his or her race. We recommended that HRS
              revise the questionnaire to include a question asking the former employee to
              identify voluntarily his or her racial identity.

              Management generally concurred with our recommendations, but disagreed
              with our finding that the OIC has not been included in major decisions
              involving workforce diversity.

              Open World Leadership Center
              Fiscal Year 2010 Financial Statements
              Audit Report No. 2011‐FN‐103
              May 2011

              The mission of the Open World Leadership Center (Open World) is to enhance
              understanding and capabilities for cooperation between the United States
              and the countries of Eurasia and the Baltic States. In pursuing its mission,
              Open World has developed a network of leaders in those regions who have
              gained significant, firsthand exposure to America’s democratic, accountable
              government and free-market system.

              Since Open World’s founding by the Congress in 1999, it has emerged as a
              unique resource for members of Congress and their staff by assisting Congress
              in its foreign policy oversight responsibilities. In this capacity, Open World
              conducts one of the largest U.S. exchange programs for Eurasia, through
              which some 6,100 volunteer American families in all 50 states have hosted
              thousands of emerging leaders from former Soviet countries. As a result of
              these exchanges, hundreds of projects and partnerships beneficial to all have
              been initiated and enhanced.

              Open World is an independent entity in the legislative branch governed by
              a board of trustees. Board members consist of members of the Congress
              and private citizens. Serving the board of trustees is an audit committee
              comprised of three members with extensive experience in Congress, federal
              agency operations, finance, and accounting. The audit committee provides
              oversight by assuring Open World management appropriately carries out its
              responsibilities for internal control, financial reporting, compliance with laws
              and regulations, ethics, and economies and efficiencies.




29 • Semiannual Report to the Congress
Under contract with the OIG, the accounting firm of Kearney & Company
audited Open World’s FY 2010 financial statements and issued its Independent
Auditor’s Report. The audit included the Center’s consolidated balance sheets
and the related consolidated statements of net costs, changes in net position,
and combined statement of budgetary resources for FY 2010 and 2009. The
auditors concluded that the financial statements were presented fairly in all
material respects, and in conformity with U.S. generally accepted accounting
principles. The firm’s auditors also performed tests of compliance with laws
and regulations, and considered internal controls over financial reporting and
compliance. In its audit of Open World, Kearney & Company found no
material weaknesses in internal control and no reportable noncompliance with
the laws and regulations it tested.




                                                 Above: Detail of Stained Glass Window in Coffered Arch
                                                 Alcove, Main Reading Room,Thomas Jefferson Building.
                                                 Photograph by Carol Highsmith.


                                                  Semiannual Report to the Congress • 30
Investigations
During the reporting period, we opened 38 investigations and closed 56. We forwarded two investigation
cases to Library management for adverse administrative action. Two cases were forwarded to the Department
of Justice for prosecution: one criminal, and one civil. Both were accepted. Investigation case and Hotline
activities are detailed below.

 Table 1: 	        Investigation Case Activity
                                      Criminal/Civil          Administrative                          Total
 From Prior Reporting Period                37                        27                                64
 Opened                                     7                         31                                38
 Closed                                     17                        39                                56


 End of Period                              27                        19                                46


Table 2: 	        Hotline Activity
                                                                              Count
Allegations received                                                             19
Referred to management                                                           4
Opened as investigations                                                         6
Opened as audit                                                                  1
Closed with no action                                                            8




                                                          Left: A Portrait Statue of Joseph Henry Representing Science. Henry
                                                          Served as the First Secretary of the Smithsonian Institution. The Main
                                                          Reading Room,Thomas Jefferson Building.
                                                          Photograph by Carol Highsmith.


                                                           Semiannual Report to the Congress • 32
                                 Significant Criminal and
                                 Administrative Investigations

                                 Reading Room Theft

                                 An individual allegedly removed a reference book from a reading room
                                 after Library staff explained that the book could not be checked out of
                                 the Library. The individual, on probation at the time for destruction of
                                 private property in an unrelated incident, was charged with theft in the second
                                 degree, a misdemeanor. Prior to a scheduled trial, the individual accepted a
                                 “diversion” agreement which requires the defendant to complete 32 hours
                                 of community service, make restitution to the Library for the loss, and not
                                 visit the Library for a year.

                                 Employee Attempts to Purchase Illegal Narcotics

                                 A Library Services employee admitted to using a government franked
                                 envelope in an attempt to purchase illegal narcotics. The employee used
                                 the envelope to mail a letter and cash, which was returned to the Library
                                 by the U.S. Postal Service due to an incorrect mailing address. The U.S.
                                 Attorney declined to prosecute the case and the employee was given a 30-
                                 day suspension without pay.

                                 Library Employee Working as a Library Contractor

                                 The OIG initiated an investigation after an OIG audit identified a
                                 Library employee who also earned $9,145 while employed as a Library
                                 contractor. Library management decided that the overlapping contract
                                 and employment resulted from inadequate management controls rather
                                 than intentional misconduct.




Right: Detail of Frieze in the Main Reading Room Depicting
Winged Half Figures with the Torch of Learning, Thomas
Jeferson Building.

Photograph by Carol Highsmith.

33 • Semiannual Report to the Congress
Follow-up on Investigative Issues
from Prior Semiannual Reports

Identity Theft

As previously reported, the OIG conducted an investigation into the theft
of a Library employee’s identity. While executing a search warrant at the
suspect’s residence, OIG special agents obtained evidence showing that the
Library employee’s personal identifying information, and that of six victims
not affiliated with the Library, were used by the suspect multiple times for
fraudulent credit applications and purchases. During this reporting period,
the suspect was sentenced to 36 months of incarceration and made $28,847
in restitution.

Marijuana Possession

We previously reported the case of an employee who was arrested by the
U.S. Capitol Police for possession of marijuana on government time but
off Library property. Although the charge for possession was dismissed
during an evidence suppression hearing, OIG special agents interviewed the
employee, who admitted to possession of a half pound of marijuana while
on government time. During the reporting period, the employee appealed
a proposed 30-day suspension. The appeal was denied.
                                                              Other Activities
                                                              IG Participates in CIGIE Audit
                                                              and Investigations Committees
                                                              The Inspector General (IG) was selected to par-
                                                              ticipate in the audit committee of the Council of
                                                              the Inspectors General on Integrity and Efficiency
                                                              (CIGIE). The CIGIE audit committee provides
                                                              leadership for the federal audit community, sponsors
                                                              and coordinates multi-agency and government-wide
                                                              audits, develops and maintains professional stan-
                                                              dards for OIG audit activities, and provides over-
                                                              sight for auditor training.

                                                              The CIGIE audit committee represents the OIG
                                                              community’s interest on government-wide issues
                                                              such as improper payment initiatives, the IG’s role
                                                              in federal information security, accounting and au-
                                                              diting policy, and the Comptroller General’s revision
                                                              of Government Auditing Standards.

                                 The OIG is also continuing active membership in CIGIE’s investigations commit-
                                 tee.

                                 OIG Review Realizes Significant
                                 Savings for the Library in
                                 Contract Dispute
                                 June 2011

                                 In March 2009, the Library awarded a contract to Macfadden and Associates, Inc.
                                 (Macfadden). The purpose of the contract was to digitally scan card catalog files
                                 of the Library’s Collections and Services Directorate and transfer the scanned im-
                                 ages to the Library’s server. Upon award, Macfadden incurred certain expenses in
                                 contemplation of the contract and began some preliminary work.

                                 In August 2009, the Office of Contracts and Grants Management (OCGM) was
                                 compelled to unilaterally terminate the contract after receiving a protest to the
                                 contract award from a competing bidder. The following month, as a result of this
                                 termination, Macfadden submitted to OCGM a contract termination settlement
                                 proposal for $315,404. Under the Federal Acquisition Regulation (FAR), Macfad-
                                 den may have been entitled to certain damages resulting from the termination.



Above: Coffered Dome Above the Main Reading Room,
Thomas Jefferson Building.

Photograph by Carol Highsmith.

 35 • Semiannual Report to the Congress
At the request of OCGM, the OIG conducted a review of Macfadden’s settlement
proposal to determine the validity of the claim. Based on applicable FAR criteria,
we determined that $304,706 of the contractor’s total proposed settlement cost
should be disallowed. In response to the OIG report, the contractor submitted to
the Library a significantly reduced settlement proposal.

In mid-2011, the Library reported to the OIG that it had reached a settlement with
Macfadden in the amount of $37,742. As a result of the OIG review, the Library
saved $277,662.

Electronic Audit Program Update
June 2011

During this semiannual period, we installed a new version of our computerized au-
dit software program. The program creates a detailed electronic record of each audit
and is also utilized by outside auditors for peer reviews of OIG activities.

The new program’s enhanced features include dashboard views for quick reference
of complete and outstanding audit requests and an automated electronic collabora-
tion capability for auditors and auditees. The audit program promotes efficiency
by streamlining audit processes and improves security functions through embed-
ded document options and reduced reliance on paper-based records. In addition
to increased efficiency, the update also brings the OIG into compliance with the
Library’s complex password requirements.

Multi-Agency Financial
Audit Contract
July 2011

In 2009, Congress directed the Library’s IG to chair a committee of the agencies
participating in the Library’s financial system cross-servicing agreement to select a
common financial statements auditor. Beginning in August 2010, we convened the
committee with representatives from the Library of Congress, U.S. Capitol Police,
Congressional Budget Office, Open World Leadership Center, and James Madison
Council. The committee successfully developed a combined solicitation, and in
July 2011, awarded the contract for FY 2011 with four succeeding option years.

In awarding the contract, the committee accomplished Congress’ intent by obtain-
ing a projected cost savings of more than $1.6 million over the five-year life of the
contract. Additionally, each agency’s financial and information technology func-
tions will obtain efficiencies in time and auditor interaction because of the com-
bined audit approach. The independent public accounting firm began work on the
FY 2011 agency financial statements audits in August 2011.




                                                        Semiannual Report to the Congress • 36
Review of Legislation and Regulations

Table 3:                 Review of Library of Congress Regulations (LCRs)
       LCR Reviewed                               Comments by the Office of The Inspector General (OIG)
LCR 1514-9                          We suggested that this LCR add verbiage that the Office of General Counsel may request the assistance
Claims for Private Personal         of the OIG in reviewing and investigating the validity of claims and that any suspected misuse of this
Property Losses Incident to Service program should be reported to the OIG.
                                    We suggested that this LCR should be expanded to include greater detail regarding official government
LCR 1920	
                                    electronic records. We also commented that this LCR should include guidance regarding the
Records Management
                                    protection of personally identifiable information contained in official government records.
                                    We suggested that this LCR clarify whether the decision to extend the probationary period for reasons
                                    other than absence rests with the employee’s supervisor, the chief, or outside the unit in question. We
LCR 2010-12		
                                    also commented that this LCR should address remedial procedures that can be followed in the event
Probationary Period for New
                                    that an evaluation is not delivered to the employee in a timely manner. Further, we commented that
Supervisors and Managers
                                    the LCR should clarify if the employee has an entitlement to his/her previous position or if the change
                                    of position is discretionary based on the Library’s business needs.
LCR 2010-3.1
                                    We suggested that this LCR clarify the maximum number of days for filing a complaint after the
Resolution of Problems,
                                    date of the alleged incident and the days for response by an OIC counselor. We also suggested that
Complaints, and Charges of
                                    the LCR be brought in line with the Federal EEO Complaint Processing Procedures and to mirror
Discrimination in Library
                                    established timeliness. Further, we suggested the addition of the complainant’s right to appeal to
Employment and Staff Relations
                                    EEOC or to file a civil action. We also suggested the LCR insert a time frame for issuance of a final
Under the Equal Employment
                                    order by the Librarian.
Opportunity Program
LCR 2010-7	
Employment of Non-U.S.
                                    We offered no comment regarding this LCR.
Citizens Using Appropriated and
Non-Appropriated Funds
LCR 2017-2.1	
                                    We offered no comment regarding this LCR.
Senior Level Executive System

LCR 2025-5	
                                    We offered no comment regarding this LCR.
Enforced Leave and Suspension

LCR 2103
                                    We offered no comment regarding this LCR.
Contract Disputes




37 • Semiannual Report to the Congress
Unimplemented Recommendations
Table 4A: 	     Significant Recommendations from Previous Semiannual
                Reports for Which Corrective Action Has Not Been Completed
        Subject           Report No.         Office         Rec. No.      Summary and Status of Recommendation
                          Issue Date
Office of the Librarian
                                                                       The Development Office should ensure that the Raiser’s Edge
Raiser’s Edge              2006-IT-302     Development
                                                               II      system undergoes certification and accreditation (C&A)—
Software Program          December 2007       Office
                                                                       C&A completion targeted for October 2011.
                                                                       System managers for Raiser’s Edge should regularly review
                                                                       the system’s transaction logs for suspect data events—Infor-
Raiser’s Edge              2006-IT-302     Development                 mation Technology Services (ITS) does not have a system
                                                               III
Software Program          December 2007       Office                   capable of reviewing the system logs and is obtaining cost
                                                                       estimates for such a system. Vendor meetings targeted for
                                                                       completion by January 2012.
                                                                       Separate the IT function from OSI and have the Chief In-
Information Technology    2008-PA-105        Office of                 formation Officer report directly to the Librarian or Chief
                                                              3.A
(IT) Strategic Planning   March 2009       the Librarian               Operating Officer—There has been no resolution on this
                                                                       recommendation.
                                                                       Create a policy using the applicable IRS Common Law Rules
                                                                       test to properly classify workers as independent contractors or
                                                                       employees and require service/support units to submit docu-
                                                                       mentation on the test to the Office of Contracts and Grants
                          2010-PA-105      Office of the               Management (OCGM) for nonpersonal contract services—
Multi-Sector Workforce                                        III.1
                          March 2011      General Counsel              The Office of the General Counsel (OGC) has incorporated
                                                                       factors from the IRS test and the associated requisition form
                                                                       into proposed revisions to Library of Congress Regulation
                                                                       (LCR) 2111.  Revised LCR targeted for implementation dur-
                                                                       ing FY 2012.
                                                                       Promptly identify nonpersonal services contracts where em-
                                                                       ployer/employee relationships have been established between
                                                                       the Library and contractors and consult with OGC about
                          2010-PA-105      Office of the               terminating those contracts—All service units reevaluated
Multi-Sector Workforce                                        III.2
                          March 2011      General Counsel              their nonpersonal service contracts and terminated contracts
                                                                       not reflecting an independent relationship with the Library.
                                                                       The OGC will confirm the results of the analysis performed
                                                                       by service units by November 2011.
Office of Support Operations
Human Resources Services (HRS)
                                                                       Develop a survey modeled after the Office of Personnel
                                                                       Management’s Management Satisfaction Survey to deter-
                          2009-PA-101
Human Resources                             Workforce                  mine managers’ satisfaction with the hiring process and
                           November                           I.c.2
Services                                   Acquisitions                identify strategies for making process improvements—A
                             2009                                      survey has been developed with plans to implement in FY
                                                                       2012.
                                                                       Prepare performance appraisals which compare employees’
                                                                       actual accomplishments with corresponding performance
                          2009-PA-101
Human Resources                             Workforce                  requirements—Performance plans for Workforce Acquisi-
                           November                           II.1
Services                                   Acquisitions                tions staff were modified for the performance year beginning
                             2009                                      September 1, 2011. New plans will be in place during the
                                                                       first quarter of FY 2012.



                                                                       Semiannual Report to the Congress • 38
Unimplemented Recommendations
Table 4A: 	      Significant Recommendations from Previous Semiannual
                 Reports for Which Corrective Action Has Not Been Completed
         Subject          Report No.          Office         Rec. No.      Summary and Status of Recommendation
                          Issue Date
 Human Resources Services (HRS) Continued
                                                                        Require managers to attend quarterly HRS forums and su-
                                              Human
 Employment Incentives    2010-PA-103                                   pervisors to attend at least once per year—HRS is awaiting
                                             Resources         I.1.a
 and Flexibilities          July 2010                                   Operations Committee approval to implement this recom-
                                              Services                  mendation. Target completion in FY 2012.
                                                                        Require managers to complete on-line refresher training an-
                                                                        nually on material in the Supervisors Handbook, similar to
                                                                        the annual training required of all Library employees on
                                              Human
 Employment Incentives    2010-PA-103                                   information technology security awareness—The Human
                                             Resources         I.1.b
 and Flexibilities          July 2010                                   Capital Flexibilities Working Group (FWG) is completing
                                              Services                  a series of recommendations including this for review and
                                                                        approval by the Library’s Operations Committee. A deci-
                                                                        sion is expected in FY 2012.
                                                                        Assign a point-person responsible for ensuring that mem-
                                              Human                     bers of the FWG pass the group’s information on to their
 Employment Incentives    2010-PA-103
                                             Resources          I.2     respective managers—HRS will address this as part of the
 and Flexibilities          July 2010
                                              Services                  FY 2012 implementation of the Human Capital Manage-
                                                                        ment Plan.
                                                                        Develop and implement a structured procedure that provides
                                                                        a uniform method for making personnel determinations.
                                                                        This procedure should provide the means to identify which
                                              Human
                           2010-PA-105                                  activities are inherently governmental and which service pro-
 Multi-Sector Workforce                      Resources           I
                           March 2011                                   vider represents the best value to the Library—The Office of
                                              Services
                                                                        Support Operations is developing the recommended proce-
                                                                        dure and expects to forward it to the Executive Committee
                                                                        for approval by March 2012.
                                                                        Establish a system to collect and maintain data representing
                                                                        the total composition of the Library’s direct hire and contrac-
                                                                        tor workforce. Ensure that the data maintained in the system
                                                                        is current, complete, and accurate at all times—The National
                                              Human                     Finance Center developed an integrated “Person Model”
                           2010-PA-105
 Multi-Sector Workforce                      Resources          II      within EmpowHR to track employee and non-employee in-
                           March 2011
                                              Services                  formation over the course of a person’s association with the
                                                                        Library (e.g., employee, contractor, fellow, volunteer, etc).
                                                                        The Model is being tested. Until implemented, HRS and
                                                                        OCGM have interim procedures to prevent dual relation-
                                                                        ships within the Library.
 Integrated Support Services (ISS)
                                                                        Revise LCR 2018-5—Workforce Management will meet
 Federal Employees’
                           2008-PA-102     Health Services              with unions and discuss the Library’s counter-proposal to the
 Compensation Act                                               IV
                          September 2008       Office                   Unions’ proposed edits to LCR draft. Target completion is
 Program
                                                                        November 2011.
                                                                        Develop and implement policies and procedures that provide
                                                                        an organized means for Library organizations and employees to
 Retention of Federal     2009-PA-104      Office Systems               conform to federal records management requirements—LCR
                                                                I.a
 Records                  March 2010          Services                  1920 and related directives address this recommendation and
                                                                        are in final review with a target implementation of December
                                                                        2011.



 39 • Semiannual Report to the Congress
Table 4A: 	      Significant Recommendations from Previous Semiannual
                 Reports for Which Corrective Action Has Not Been Completed
         Subject          Report No.          Office         Rec. No.      Summary and Status of Recommendation
                          Issue Date
                                                                        Initiate a program to provide active oversight of service
                                                                        units’ record keeping practices. Ensure that the oversight
                                                                        program’s design provides adequate assurance that service
 Retention of Federal     2009-PA-104     Office Systems
                                                               I.b      units’ practices comply with the Federal Records Act and
 Records                  March 2010         Services
                                                                        National Archives and Records Administration regula-
                                                                        tions—Program was designed and is under OGC review
                                                                        with training scheduled for completion June 2012.
                                                                        Develop and implement a training program on federal re-
 Retention of Federal     2009-PA-104     Office Systems                cords management for Library staff—Training program is
                                                                I.c
 Records                  March 2010         Services                   under development and scheduled for implementation in
                                                                        November 2011.
                                                                        Perform a cost/benefit analysis to determine whether the
 Retention of Federal     2009-PA-104     Office Systems                Library should implement an electronic record-keeping sys-
                                                                II
 Records                  March 2010         Services                   tem—The Library is reviewing options and will conduct a
                                                                        cost/benefit analysis by September 2012.
 Office of Opportunity, Inclusiveness, and Compliance (OIC)
                                              Office of
 Equal Employment                                                       Evaluate and revise LCR 2010-3.1—The LCR Working
                          2001-PA-104     Opportunity, In-
 Opportunity                                                     I      Group is reviewing the draft LCR and target implementation
                          February 2003   clusiveness, and
 Complaints Office                                                      is FY 2012.
                                            Compliance
                                                                        Revise LCR 2020-7 to allow complainants to use dispute
                                              Office of
                          2002-PA-104                                   resolution during the formal complaint process—OGC
 Dispute Resolution                       Opportunity, In-
                           September                            III     is reviewing the draft LCR before circulation to the LCR
 Center                                   clusiveness, and
                             2003                                       Working Group for review and comment. Target date for
                                            Compliance
                                                                        implementation is FY 2012.
                                                                        The Library should make its “No FEAR” data available to
                                              Office of
                                                                        staff via the Library’s Staff Intranet Web site and benchmark
 Diversity Management     2008-SP-104     Opportunity, In-
                                                                IV      this data against other federal agencies of similar size—The
 Program                   July 2008      clusiveness, and
                                                                        Executive Committee is considering this recommendation
                                            Compliance
                                                                        but has not made a final decision.
 Library Services (LS)
                                                                        Establish criteria for specifically defining Top Treasure col-
                                                                        lection items and a clear process to nominate or transfer col-
 Top Treasures Security
                          2008-PA-103                                   lection items to the category—The Conservation Division
 and Preservation                         Library Services      I.a
                          January 2009                                  is reviewing the revised draft LCR prior to circulation to the
 Controls                                                               LCR Working Group for review and comment. Target date
                                                                        for implementation is FY 2012.
                                                                        Develop and implement an automated system to track and ac-
                                                                        count for new acquisitions and establish adequate segregation
 Rare Book and Special    2008-PA-101
                                          Library Services      I.a     of duties—LS is reviewing programming and workflow revi-
 Collections Security     March 2009
                                                                        sions to Voyager to accomplish this recommendation. Target
                                                                        implementation during FY 2012.
                                                                        Reevaluate background investigation procedures for Rare
                                                                        Book and Special Collections Division’s management and pe-
                                                                        riodically update background investigations—Revised person-
 Rare Book and Special    2008-PA-101
                                          Library Services      I.f     nel security regulations were issued July 2011 in LCR 2024-
 Collections Security     March 2009
                                                                        2 §3.B and 5. Currently awaiting the Office of Personnel
                                                                        Management’s implementation of periodic reinvestigation of
                                                                        public trust positions.



                                                                         Semiannual Report to the Congress • 40
Unimplemented Recommendations
Table 4A: 	    Significant Recommendations from Previous Semiannual
               Reports for Which Corrective Action Has Not Been Completed
       Subject           Report No.           Office           Rec. No.             Summary and Status of Recommendation
                         Issue Date
Library Services (LS) Continued
                                                                                Prepare future Annual Performance Budgets with format/ter-
Performance-Based         2010-PA-107                                           minology consistent with eLCplans—LS will incorporate all
                                          Library Services           I
Budgeting                 January 2011                                          recommendations. Target date for the next draft performance
                                                                                budget is October 2011.
                                                                                Develop more outcome‐related performance strategies and
Performance-Based         2010-PA-107                                           targets—LS will incorporate all audit recommendations. Tar-
                                          Library Services         II.1
Budgeting                 January 2011                                          get date for the next draft performance budget is October
                                                                                2011.
                                                                                Design and implement an internal control system that will
Performance-Based         2010-PA-107                                           ensure that valid and verifiable data will be collected and used
                                          Library Services         II.2
Budgeting                 January 2011                                          to measure program performance—LS will implement dur-
                                                                                ing FY 2012.
Office of Strategic Initiatives (OSI)
                                                                                Produce a plan of execution guide to ensure that the Library
                                                                                moves forward as a total institution with one voice—The
Information Technology   2008-PA-105      Office of Strate-
                                                                   1.D          Library appointed an enterprise architect and is developing
Strategic Planning       March 2009        gic Initiatives
                                                                                a transformation guide through the Enterprise Architecture
                                                                                process. Development will continue through FY 2012.
                                                                                Implement a commercial “off-the-shelf ” (COTS) enterprise
                                                                                help desk system that includes metrics—The Library plans
                                           Information                          to implement a COTS help desk system with enhanced
Information Technology   2008-PA-105
                                           Technology              5.D          metrics but the system will be optional for service/support
Strategic Planning       March 2009
                                             Services                           units. The service/support units’ systems require an inter-
                                                                                face with the new system and will not obtain recommended
                                                                                efficiencies.
                                                                                Negotiate a new help desk contract to meet the different
                                                                                service level requirements of all service and support units to
                                           Information
Information Technology   2008-PA-105                                            eliminate duplicative services—The Library is in its second
                                           Technology               5.E
Strategic Planning       March 2009                                             option year of the existing help desk contract that expires
                                             Services                           in 2014 and has not addressed the duplicative services issue.
                                                                                The recommendation has not been resolved.
                                           Information
Information Technology   2008-PA-105                                            Develop dynamic, evolving metrics to measure perfor-
                                           Technology               5.F
Strategic Planning       March 2009                                             mance—This recommendation has not been resolved.
                                             Services
                                                                                Conduct a comprehensive needs assessment of hardware,
                                                                                software, and IT equipment and ensure an adequate in-
                                           Information
Alternate Computing       2009-IT-101                                           frastructure is in place to mirror and recover the Library’s
                                           Technology              I.a.1
Facility                 September 2009                                         critical systems—Needs assessment targeted for completion
                                             Services                           January 2012 with IT Steering Committee recommenda-
                                                                                tions to follow.
                                                                                Coordinate with the Library’s service units and divisions to
                                           Information                          develop and conduct tests to verify that users can directly
Alternate Computing       2009-IT-101
                                           Technology              I.c.2        access and use the systems and data at the Alternate Com-
Facility                 September 2009
                                             Services                           puting Facility (ACF) from remote locations—IT plans
                                                                                testing in October 2011.
                                                                                Continue to implement the OIG’s recommendations to im-
                                           Information
Data Center Power         2009-SP-102                                           prove the readiness and functionality of the ACF data cen-
                                           Technology              III.3
Outage Incident          December 2009                                          ter discussed in the September 2009 OIG report—All rec-
                                             Services                           ommendations scheduled for completion by January 2012.

                                                         Right: Books from Thomas Jefferson’s Original Library, Aquired by the Library of Congress in 1815.

                                                         Photograph by Library of Congress, Interpretive Programs Office.

  41 • Semiannual Report to the Congress
Implemented Recommendations
Table 4B: 	     Significant Recommendations from Previous Semiannual Reports
		              for Which Corrective Action Was Completed During This Period
        Subject           Report No.         Office         Rec. No.      Summary of Recommendation and Action
                          Issue Date
Office of the Librarian
                                                                       File a Determination of Worker Status for Purposes of Fed-
                                                                       eral Employment Taxes and Income Tax Withholding form
                          2010-PA-105     Office of the
Multi-Sector Workforce                                        III.3    with IRS to officially determine workers’ status when need-
                          March 2011     General Counsel
                                                                       ed—OGC has incorporated factors from the IRS test into
                                                                       proposed revisions to LCR 2111.
Office of the Chief Financial Officer (OCFO)
                                                                       Include more specific details in internal OCFO written pro-
                                                                       cedures for performing travel card transaction reviews and
                          2009-PA-106                                  delinquency report reviews—OCFO acquired and installed
Travel Card Program                       Travel Office        I.a
                          January 2010                                 software to evaluate travel card transactions and developed
                                                                       written procedures. Target date for completion is October
                                                                       2011.
Office of Support Operations
Human Resources Services (HRS)
                                                                       Compare actual hiring data with planned results and pe-
                                                                       riodically assess and adjust the time goals for each hiring
                                                                       step—Previously HRS requested hiring plans for the new FY
                          2009-PA-101
Human Resources                             Workforce                  by August 31 to assess anticipated hiring needs and make
Services
                           November
                                           Acquisitions
                                                              I.a.2    appropriate adjustments to workload assignments.  For FY
                             2009                                      2012, the deadline will be December 31, 2011, to allow for
                                                                       the completion of the Library’s ongoing Voluntary Separa-
                                                                       tion Incentive Payment program.
                                                                       Make the contents of the Library’s “Jobs/Fellowships” Web
                          2009-PA-101                                  page more inviting and informative to job seekers explor-
Human Resources                             Workforce
Services
                           November
                                           Acquisitions
                                                              III.b    ing Library career opportunities and ensure terms used are
                             2009                                      clearly explained—The redesigned site is now available at:
                                                                       http://www.loc.gov/hr/employment/index.php.
                                                                       Provide service/support units with sample justifications and
                                             Human                     checklists to ensure that all legal and regulatory require-
Employment Incentives     2010-PA-103
                                            Resources         III.1    ments are met in the administration of recruitment incen-
and Flexibilities           July 2010
                                             Services                  tives—Recommendation implemented, sample justifica-
                                                                       tions and checklists provided to service/support units.
Office of Contracts and Grants Management (OCGM)
                                                                       Replace the competition advocate with a qualified person
                                            Office of                  that has extensive experience in federal procurement law—
                          2010-CA-102
Sole Source Contract                      Contracts and                The Contract Division Chief is currently the competition ad-
                           September                           c.2
Award–Power Tech                         Grants Manage-                vocate. When OCGM fills the GS-14 Procurement Analyst
                             2010
                                             ment                      position, the Chief will transfer his role as the competition
                                                                       advocate to that position.
Office of Opportunity, Inclusiveness, and Compliance (OIC)
                                             Office of                 Track promotions and performance evaluations to determine
Diversity Management      2008-SP-104    Opportunity, In-              whether there is consistency among groups—Management
                                                              II.5
Program                    July 2008     clusiveness, and              has installed controls to hold managers and supervisors ac-
                                           Compliance                  countable for fair and regular feedback on performance.




  43 • Semiannual Report to the Congress
Table 4B: 	      Significant Recommendations from Previous Semiannual Reports
		               for Which Corrective Action Was Completed During This Period
        Subject          Report No.          Office         Rec. No.      Summary of Recommendation and Action
                         Issue Date
                                             Office of
                                                                       Organize a facilitative workshop with program supervisors,
Diversity Management      2008-SP-104    Opportunity, In-
                                                              II.7     HRS, and OIC staff to discuss identified barriers—The OIC
Program                    July 2008     clusiveness, and
                                                                       is conducting workshops with program supervisors.
                                           Compliance
Library Services (LS)
                                                                       Reevaluate the position designations of staff members with au-
Top Treasures Security                                                 thorized vault access who occupy non-sensitive positions and
                          2008-PA-103
and Preservation                         Library Services      I.c     revise LCRs dealing with sensitivity designations for positions
                          January 2009
Controls                                                               with access to priceless collection items—Revised personnel
                                                                       security regulations were issued July 2011.
                                                                       Develop and document new policies and procedures for
                                                                       authorizing, tracking, and reviewing collection material on
Rare Book and Special     2008-PA-101
                                         Library Services      I.c     loan—A stand-alone system and related policies have been
Collections Security      March 2009
                                                                       implemented for authorizing, tracking, and reviewing col-
                                                                       lection material on loan.
                                                                       Explore the costs and benefits of using high-resolution pho-
                                                                       tography to assist in proving ownership of the Library’s rare
Rare Book and Special     2008-PA-101                                  materials—LS’ investigation of this technology concluded
                                         Library Services      II
Collections Security      March 2009                                   the process is too costly or invasive. LS will revisit this pro-
                                                                       posal as part of its reconfiguration of the online catalog re-
                                                                       cord using less costly solutions.
Law Library (LL)
                                                                       Implement a tracking mechanism for rare material trans-
                          2010-AT-102                                  ferred from the LL to other Library organizations—Tracking
Law Library Security                       Law Library        II.1
                          January 2011                                 mechanism has been implemented using an existing field in
                                                                       the Library’s software program.
                                                                       Consult with the Preservation Directorate to develop and im-
                          2010-AT-102                                  plement procedures creating a positive means of establishing
Law Library Security                       Law Library        II.2
                          January 2011                                 Library ownership of rare materials—LL has implemented
                                                                       procedures to establish proof of ownership of rare materials.
                                                                       Incorporate the segregation of duties principle in the organi-
                          2010-AT-102                                  zation’s procedures for preparing packages to be mailed—The
Law Library Security                       Law Library         III
                          January 2011                                 LL is following Library procedures for inspection of outgoing
                                                                       mail items and maintaining the appropriate required forms.
                                                                       Coordinate with the Personnel Security Office to designate
                          2010-AT-102                                  the positions of employees who have access to rare LL mate-
Law Library Security                       Law Library         IV
                          January 2011                                 rials as public trust—Revised personnel security regulations
                                                                       were issued July 2011.
                                                                       Work with the Office of Security and Emergency Preparad-
                                                                       ness (OSEP) and the Architect of the Capitol to ensure all
                                                                       rare materials are segregated from non‐rare materials. Within
                          2010-AT-102                                  budget, provide enhanced physical security and environmen-
Law Library Security                       Law Library          I
                          January 2011                                 tal controls called for in the Strategic Plan for Safeguarding
                                                                       the Collections, 2005‐2008—The LL has segregated rare ma-
                                                                       terials as recommended. Congress has not approved funding
                                                                       for enhanced security and environmental controls.




                                                                       Semiannual Report to the Congress • 44
Table 4B: 	         Significant Recommendations from Previous Semiannual Reports
		                  for Which Corrective Action Was Completed During This Period
          Subject                  Report No.                Office     Rec. No.      Summary of Recommendation and Action
                                   Issue Date
Office of Strategic Initiatives (OSI)
                                                                                   Conduct a comprehensive evaluation of remote access and
                                                          Information
Alternate Computing                 2009-IT-101                                    connectivity to the ACF—The additional remote access in-
                                                          Technology      I.c.1
Facility                           September 2009                                  frastructure has been successfully implemented and tested
                                                            Services
                                                                                   at the ACF.
                                                          Information              Identify and classify the Library’s mission essential functions
Alternate Computing                 2009-IT-101
                                                          Technology      II.1     and critical systems—ITS has completed its initial identifi-
Facility                           September 2009
                                                            Services               cation and classification of critical Library IT systems.
                                                                                   Establish procedures to ensure that the list of systems, clas-
                                                          Information
Alternate Computing                 2009-IT-101                                    sified by tier level, is complete and kept up-to-date—ITS
                                                          Technology      II.2
Facility                           September 2009                                  has established procedures to ensure that the list of IT sys-
                                                            Services
                                                                                   tems, classified by tier level, is kept complete and current.
                                                                                   ITS should address the single point of failure for wireless
                                                                                   cellular phone service equipment in the main data center—
                                                          Information              After consulting with OSEP, ITS determined there is no
Data Center Power                   2009-SP-102
                                                          Technology      IV.1     requirement to provide all Library staff with wireless cellu-
Outage Incident                    December 2009
                                                            Services               lar phone capability during a service disruption/emergency
                                                                                   situation. Appropriate communications strategies are in
                                                                                   place to support critical personnel during such situations.
                                                                                   Strengthen network security controls for detecting unauthor-
                                                          Information              ized devices on the Library’s network and follow established
                                    2010-SP-101
Multi-Function Devices                                    Technology       IV      guidelines and best practices for configuring and securing
                                     April 2010
                                                            Services               Multi-Function Devices—ITS has fully implemented tools
                                                                                   to detect unauthorized devices on the Library network.




  Right: Mosaic in Domed Lobby with Quotation “Knowledge is
  Power.” East Corridor, First Floor, Thomas Jefferson Building.

  Photograph by Carol Highsmith.


  45 • Semiannual Report to the Congress
      Funds Questioned or Put to Better Use
          Table 5:	        Audits with Recommendations for Better Use of Funds
          Reports…                                                                     Number         Value
          …for which no management decision was made by the start of the period:         -              -

          …issued during the period:                                                     -              -
                                                                            Subtotal     -              -
          …for which a management decision was made during the reporting period:

                  value of recommendations agreed to by management                       1           $17.1m 1

                  value of recommendations not agreed to by management                   -

          …for which no management decision was made by the end of the reporting
                                                                                         -              -
          period:

          …for which no management decision was made within six months of
                                                                                         -              -
          issuance:




          Table 6:	        Audits with Questioned Costs
          Reports…                                                                     Number         Value

          …for which no management decision was made by the start of the period:         -              -

          …issued during the period:                                                     -              -
                                                                            Subtotal     -              -
          …for which a management decision was made during the reporting period:
                                                                                                               2
                     value of recommendations agreed to by management                    1          $277,662

                     value of recommendations not agreed to by management                -

          …for which no management decision was made by the end of the reporting
                                                                                         -              -
          period:
          …for which no management decision was made within six months of
          issuance:                                                                      -              -


      NLS Effectively Planned and Implemented the Digital Conversion, But Needs to Reduce Its Requirements
      1

      Projections, Audit Report No. 2011-PA-104, October 2011 (see page 13).

      Review of the Termination Settlement Proposal of Macfadden and Associates, Inc., Report No. 2010-CA-101
      2

      June 2010 (see page 35).




47 • Semiannual Report to the Congress
Instances Where Information or
Assistance Requests Were Refused
No information or assistance requests were refused during this period.

Status of Recommendations
Without Management Decisions
During the reporting period there were no recommendations more than six months old without management
decisions.

Significant Revised Management Decisions
During the reporting period there were no significant revised management decisions.

Significant Management Decisions
With Which OIG Disagrees
During this reporting period there were no significant management decisions with which OIG disagreed.

Follow-up on Prior Period Recommendations
In this semiannual period, we followed up on all open recommendations from our prior semiannual pe-
riod. Management’s comments on the status of individual recommendations appear in table 4A. Recom-
mendations management asserts it has implemented during the period appear in table 4B. In order to
confirm that recommendations have been implemented as reported, we perform periodic follow-ups of
selected projects to verify implementation, however, all assertions contained in table 4B are the representa-
tions of management.




                                                                   Above: Aldine Edition of Aulus Gellius’s Noctes Atticae. Venice, 1515.
                                                                   Rare Books and Special Collections Division, Library of Congress.

                                                                    Semiannual Report to the Congress • 48
Organizational Chart



                                                                   Inspector General
                                                                   Karl W. Schornagel
                        Counsel to the IG                          CPA                                       Administrative Officer
                        E. Wade Green, Jr.
                                                                                                             Sheetal Gupta
                        (Under Interagency Agreement)




                     Assistant Inspector                                                                   Assistant Inspector
                     General for Audits                                                                    General for Investigations
                     Nicholas G. Christopher, Esq., CPA                                                    Kenneth R. Keeler




Senior Lead Auditor                          Senior Lead Auditor                       Special Agent                           Special Agent
Patrick J. Cunningham                        John R. Mech                              Pamela D. Hawe                          Vacant
CIA                                          CPA                                       (Part-time)                             (Part-time)




Auditor                                      IT Specialist                             Special Agent
                                                                                                                               Management Analyst
Elizabeth Valentin                           Lawrence D. Olmsted                       Hugh D. Coughlin
                                                                                                                               Michael R. Peters
CPA, CISA



Auditor                                      Auditor                                   Investigator
Vacant                                       Walter E. Obando                          Barbara A. Hennix
                                             CIA, CISA



Management Analyst                           Management Analyst
Peter J. TerVeer                             Jennifer R. Bosch




                     Management Analyst
                     Sarah E. Sullivan




Right: Rare Book End Paper in the Bouquet Pattern, Rare Books and
Special Collections Division, Library of Congress.

 49 • Semiannual Report to the Congress
Inspector General Hotline

    Help Promote Integrity, Economy, and Efficiency

Report Suspected Fraud, Waste, Abuse, or Mismanagement

          Complaints May be Made Anonymously




                     Inspector General
                    Library of Congress

              101 Independence Avenue, S.E.
                           LM-630

               Washington, DC 20540-1060




   Main Telephone Number:           (202) 707-6314

               Fax Number:          (202) 707-6032

 Hotline Telephone Number:          (202) 707-6306

             Hotline Email:         oighotline@loc.gov

                   P.O. Box:        15051 S.E. Station
                                    Washington, DC 20003-9997




      Any information you provide will be held in confidence.
    However, providing your name and a means of communicating
         with you may enhance our ability to investigate.
